BLCLR-D-0121 (AFTI)

Interest Rates and Interest Charges
Annual Percentage Rate (APR)
for Purchases
APR for Cash Advances
How to Avoid Paying Interest
on Transactions
Minimum Interest Charge
For Credit Card Tips from the
Consumer Financial Protection
Bureau

29.9%

29.9%
Your due date is at least 25 days after the close of each billing cycle. We will not
charge you interest on transactions if you pay your entire balance by the due date
each month.
NONE
To learn more about factors to consider when applying for or using a credit card,
visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore

Fees
Set-up and Maintenance Fees

Annual Fee
Authorized User Fee
Transaction Fees
Cash Advance
Penalty Fees
Late Payment
Returned Payment

NOTICE: Some of these set-up and maintenance fees will be assessed before
you begin using your card and will reduce the amount of credit you initially have
available. For example, if you are assigned the minimum credit limit of $350, your
initial available credit will be only about $275 (or about $255 if you choose to have
an authorized user).
$75
$20 annually (an optional fee if you add an additional cardholder to your account)
2% of each cash advance
Up to $25
Up to $25

How We Will Calculate Your Balance: We use a method called “ending balance”. We figure the interest charge on your
Account by applying the periodic rate to the amount you owe at the end of each billing cycle (including new purchases, cash
advances and fees) and deducting payments and credits made during the billing cycle.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in Paragraph
15 of this Contract.

Terms and Conditions
Blaze Mastercard® Credit Card Important Information: Please take the time to read and save.
PRESCREEN & OPT-OUT NOTICE: You were selected for this “prescreened” offer of credit because the credit
bureau gave us your name and address and indicated that you met our minimum credit criteria (the way you
maintain your other credit cards and/or loans). If you do not want to be included on marketing lists you can tell
the credit bureaus to stop using your credit information for this purpose. To make this request, you need to
notify the credit bureaus at: Experian, DMA Mail Preference Service, P.O. Box 643, Carmel, NY 10512; Equifax
Options, P.O. Box 740123, Atlanta, GA 30374-0123; Trans Union Opt-Out Request, P.O. Box 505, Woodlyn, PA,
19094-0505, or call 1-888-567-8688.
Conditions Of This Pre-Approved Offer: You must 1) be a resident of the United States, 2) accept this offer on
or before the REPLY BY DATE; 3) continue to meet our minimum credit criteria; 4) provide information that can
confirm your income and that you are 18 years old or older; 5) meet our debt-to-income requirements; and 6) NOT
have any other Blaze Mastercard Credit Card issued by First Savings Bank. This offer is not available to active
duty military personnel and their dependents who are covered borrowers (as defined in 32 C.F.R. 232.3) under the
Military Lending Act.
Important Information About Procedures For Opening a New Account: To help the government fight the funding of
terrorism and money laundering activities, federal law requires all financial institutions to obtain, verify and record information
that identifies each person who opens an account. What this means for you: When you open an account, we will ask for your
name, address, date of birth and other information that will allow us to identify you.
Qualify For Future Unsecured Credit: Initially, you will be issued a Mastercard with at least a $350 credit limit, up to a
maximum of $1,500. If you make all your payments on time, meet our debt-to-income requirements, keep your account in
good standing and maintain your credit profile, you may be eligible to receive future credit limit increases.
Privacy: Financial companies choose how they share your personal information. Federal law gives consumers the right to
limit some but not all sharing. All financial companies need to share customers’ personal information to run their everyday
business. We do not share your personal information except as permitted by law to process your transactions, maintain your
account(s), respond to court orders and legal investigations, to report to credit bureaus, or to offer our products and services
to you. We will provide a complete privacy notice when your account is approved. If you would like a copy of our privacy
notice, you may obtain one by visiting our website at www.blazecc.com.
Electronic Communication: By providing your email address, you are authorizing us to communicate with you at this email
address.
Authorization / Notices: By accepting this offer, you are requesting credit from us. You confirm that all information you
provide to us is true and correct.
Credit Reports: By responding to the credit card offer, you are authorizing us to obtain credit reports about you, both now
and in the future, for any legitimate business purpose associated with the account or request for an account, including but
not limited to reviewing, modifying, renewing or collecting on your account. We may report information about your account to
credit bureaus. Late payments, missed payments, or other defaults on your account may be reflected on your credit report.
You and each authorized user agree that we may report account information to credit reporting agencies in the names of
both you and the authorized user(s).
Optional PREMIUM Club Membership: This optional program offers members discounts on prescriptions, hotels, dining,
car rentals and entertainment. The cost of this program is $4.95 per month and is included on your billing statement. You may
request cancellation at any time by telephone at 877-827-5828 or writing The PREMIUM Club at PO Box 84634, Sioux Falls,
SD 57118-4634. Enrolling or using the services, products or discounts of The PREMIUM Club signifies your acceptance of
the membership and associated fee. This program is offered and administered by CAPITAL Enhancement Services, LLC. The
PREMIUM Club is a service mark of CAPITAL Enhancement Services, LLC. All rights reserved.
© 2021, CAPITAL Enhancement Services, LLC.

Credit Card Contract and Initial Disclosure Statement
Please read this contract carefully. Your credit card account is governed by this contract. You become bound by the terms
of this contract when you sign your application. In the contract, “bank,” “we,” “our” and “us” refer to First Savings Bank
(Beresford, SD) and we are the creditor named in the application you signed. “You,” “your” and “applicant” are the person(s)
who applied to us for the account. “Contract” means the terms and conditions outlined in this contract. “Account” means the
credit card account we open for you to use to access the credit we extend to you. “Credit limit” means the maximum account
balance you can have at any time.
1.

Your Responsibility for the Account: You are responsible for the balance on the account and you agree to pay
the balance under the terms of this contract. You need to sign the back of the card. You need to protect and control
the card by not letting any other person use it. If you let another person use it, you agree to be responsible for any
charges they make. We may let you add an authorized user to your account. An authorized user is any person you
give permission to use the card or your account. If you add an authorized user, you agree to pay for any charges they
make as well as any related fees or interest. If you do not pay for the charges made by the authorized user, we may
choose to collect directly from them. If you want to remove an authorized user from your account, you need to get the
card from them and notify us. If you cannot get the card, contact us immediately and we will close the account to try to

2.

stop further charges. The cards remain our property and you agree to return them at our request or we have the right
to have a merchant keep the card and return it to us. If your card is lost or stolen or you suspect unauthorized use of
your account, you agree to notify us immediately.
Using Your Account to Obtain Credit: You can use the card and your account to make charges. We can close or
suspend the account at any time for any reason including if the activity on your account appears suspicious, if we
are concerned about repayment or if the balance is over the credit limit. We can also limit the number or amount of
charges you can make on the account. You may be assigned a PIN (Personal Identification Number) or you may
request a PIN to use ATMs to obtain cash advances. The minimum cash advance is $20.00. Your card and account
cannot be used for illegal charges. You may not use your card in connection with any gambling transaction.

3.

Your Credit Limit: The credit limit is included in the information sent with your card and on your statements. You may
not go over your credit limit at any time. If your balance is more than your credit limit, you must pay the amount over
your credit limit immediately.

4.

Monthly Billing Statements: We will send you a statement every month with the account activity, fees and interest.
It will also show your minimum payment and payment due date.

5.

Payments: Payments should be sent to the address on the payment coupon with your billing statement. If you send
a payment to any other address, there may be a delay in crediting it to your account. We do not lose any of our rights
to collect the full balance if we accept late payments, partial payments or checks or money orders marked “payment in
full” or similar language. Do not send us postdated checks. If you do, we may deposit these checks when we receive
them and will not be liable for any fees that may result. We will post payments when received but we may restrict your
ability to make new charges against that payment amount for up to thirty (30) days. If your payment is returned unpaid
from your bank, we may re-present it electronically. If this occurs, your check will not be sent to your bank but they can
get a copy of it at your request.

6.

Minimum Payment and Monthly Payment: You may pay your entire balance at any time without penalty. You must
pay at least the minimum payment each month by the payment due date. The payment due date will be twenty-five
(25) days from the closing date. The closing date is the last day of the billing cycle.
Monthly Payment: If your balance is less than $30, the monthly payment is the balance. If your balance is greater than
$30, your monthly payment is the largest amount of either $30 or 4% of your balance or 1% of the balance plus the
current late fee and interest.
Minimum Payment: The minimum payment is the sum of any past due monthly payments plus the current monthly
payment plus any amount over your credit limit.

7.

Applying your Payments: In general, the payment will be applied in the following order: Unpaid interest, unpaid fees
and other charges, and then principal balance. Payments applied to the principal balance will first be paid to balances
at the highest annual percentage rate (APR) and then to balances at lower APRs.

8.

Payment Methods: All payments must be made in U.S. dollars and drawn on a financial institution located in the
United States. Do not send cash through the mail.

9.

When Interest is Charged: Interest will be charged if you did not pay the previous balance in full by the payment
due date. We will charge interest on the ending balance. Ending balance means the balance on your account at the
end of any billing cycle. Billing cycle means the time between two billing statements. The ending balance is the sum
of the previous balance (the ending balance on your last statement) less payments and credits, plus new purchases
and new cash advances and charges posted during the billing cycle. To calculate the interest, we multiply the ending
balance by the monthly periodic rate. The monthly periodic rate is calculated by dividing the annual percentage rate
of 29.9% by 12 (months). The monthly periodic rate is 2.4917%.

10. Account Fees: You agree to pay us the following fees which will be billed to your account as a purchase and will
accrue interest.
a. Annual Fee: A $75 annual fee will be billed on your first billing statement and then about the same time each year.
b. Late Fee: You will be billed up to $25 if your payment is not received by the payment due date.
c. Returned Payment Fee: You will be billed up to $25 if your payment is returned for any reason.
d. Cash Advance Fee: You will be billed a fee of 2% of the amount of each cash advance.
e. Optional Authorized User: If you add an authorized user, there is a $20 annual authorized user fee.
11. Lost or Stolen Cards: If your card is lost, stolen or being used without your permission, call us toll free (866) 2058311, 24 hours a day. You should also write to us. Do not use the card or account after you have notified us. You will
not be responsible for paying for any unauthorized use after you notify us of the loss, theft or unauthorized use.
12. If Card is Refused: We are not responsible, and have no liability if your card or account is not accepted for a
charge. Although you may have the credit available, we may be unable to authorize credit due to system difficulties or
mistakes. If your account is over the credit limit or past due, authorization for charges should be declined.
13. Cardholder Privacy: We will send you a privacy notice annually. Your telephone calls with our representatives may
be recorded for quality and other purposes. We may use automated telephone equipment or pre-recorded telephone
calls to contact you at any number you provide to us or that we obtain, including any cellular telephone number. You
agree that we will not be responsible for the release of information to anyone who has gained possession of a card or
identification number, credit account number or social security number.

14. Calls and Text Messages to Your Cellular Phone: If you provide us with your cellular phone number, you are
providing this phone number for us, our affiliates or any third party acting on our behalf to call or text you at any number
provided. We may contact you using an auto-dialer or pre-recorded voice message. You agree that we may use this
phone number to contact you for any business purpose about your account and you agree to be responsible for any
fees or charges you incur as a result of providing this information. We may offer options for text messages or other
electronic communications that may be received or accessed from your cellular phone and you agree that by enrolling
in these services, you understand and agree to be responsible for any fees or charges you incur as a result of this
enrollment.
15. Your Billing Rights: Keep this Document for Future Use. This notice tells you about your rights and our
responsibilities under the Fair Credit Billing Act.
What to do if you find a mistake on your statement: If you think there is an error on your statement, write to us
at: Blaze Mastercard Credit Card, PO Box 5096, Sioux Falls, SD 57117-5096. In your letter, give us the following
information: Your name and account number; the dollar amount of the suspected error; a description of the problem.
If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a mistake.
You must contact us; 1) Within 60 days after the error appeared on your statement; and, 2) If you have enrolled in
automatic payment, at least 3 business days before the payment is scheduled if you want to stop payment on the
amount you think is wrong. You must notify us of any potential errors in writing. You may call us but if you do, we are
not required to investigate any potential errors and you may have to pay the amount in question.
When we receive your letter, we must do two things: Within 30 days of receiving your letter, we must tell you that
we received your letter. We will also tell you if we have already corrected the error. Within 90 days of receiving your
letter, we must either correct the error or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error: We cannot try to collect the amount in question or
report you as delinquent on that amount. The charge in question may remain on your statement and we may continue
to charge you interest on that amount. While you do not have to pay the amount in question, you are responsible for
the remainder of your balance. We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen: If we made a mistake: You will not have to pay
the amount in question or any interest or other fees related to that amount. If we do not believe there was a mistake:
You will have to pay the amount in question along with applicable interest and fees. We will send you a statement of
the amount you owe and the date payment is due. We may then report you as delinquent if you do not pay the amount
we think you owe. If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days
telling us that you still refuse to pay. If you do so, we cannot report you as delinquent without also reporting that you
are questioning your bill. We must tell you the name of anyone to whom we reported you as delinquent, and we must
let those organizations know when the matter has been settled between us. If we do not follow all of the rules above,
you do not have to pay the first $50 of the amount you question even if your bill is correct.
Your rights if you are dissatisfied with your credit card purchases: If you are dissatisfied with the goods or
services that you have purchased with your credit card, and you have tried in good faith to correct the problem with
the merchant, you may have the right not to pay the remaining amount due on the purchase. To use this right, all of
the following must be true: 1) The purchase must have been made in your home state or within 100 miles of your
current mailing address, and the purchase price must have been more than $50. These limitations do not apply if
your purchase was based on an advertisement we mailed to you, or if we own the company that sold you the goods
or services. 2) You must have used your credit card for the purchase. Purchases made with cash advances from an
ATM or with a check that accesses your credit card account do not qualify. 3) You must not yet have fully paid for the
purchase. If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at:
Blaze Mastercard Credit Card, PO Box 5096, Sioux Falls, SD 57117-5096. While we investigate, the same rules apply
to the disputed amount as discussed above. After we finish our investigation, we will tell you our decision. At that point,
if we think you owe an amount and you do not pay, we may report you as delinquent.
16. Delay in Enforcement: We can delay enforcing or fail to enforce any of our rights under this contract without losing
them.
17. Credit Reports: You authorize us to obtain credit reports about you for any legitimate business purpose. We may
obtain a credit report for reviewing, modifying the terms, renewing the account or collection. We may report information
about your account to credit bureaus. Late payments, missed payments, or other defaults on your account may be
reflected in your credit report. You and each authorized user agree that we may report account information to credit
reporting agencies in the names of both you and the authorized user(s).
18. Change in Terms of your Credit Account: We may change any term of this contract at any time upon notice to you
as is required by law. You may have the right to reject the change in terms, depending on the type of change, and if
you do, your account will be closed and you will be able to pay off the balance under the terms in effect at that time.
19. Law Governing this Contract: This contract is entered in the state of South Dakota where the decision to grant credit
will be made. Therefore, this contract will be governed by the laws of the state of South Dakota applicable to contracts,
and applicable federal law.
20. Severability: If any provision of this contract is invalid or unenforceable under any law, rule or regulation, it shall not
affect the validity or enforceability of any other provision of this contract.

21. Default: You will be in default of this contract if any of the following occur:
a. If you do not make a minimum payment on your account on or before the payment due date;
b. If you die or become legally incompetent;
c. If you become insolvent or bankrupt;
d. If you exceed or attempt to exceed your credit limit;
e. If you provide us with or have provided us with false or misleading information or signatures at any time;
f. If you fail to comply with this contract;
g. If you request an excessive number of replacement cards; or
h. We reasonably deem the prospect of repayment of your account to be in jeopardy for any reason.
If you are in default, we may immediately cancel your account and we do not have to give you notice of cancellation.
We can also require that you pay us the balance on your account. You agree that you will return the card(s) to us.
Even if an account is in default, you agree to pay interest and fees as defined in this contract until your balance is paid
in full. If your account is in default and you try to make charges, we can use any legal means to recover the card(s)
including listing your account in warning bulletins and offering rewards for the return of the cards. If you resolve a
default situation, we can still declare the same or another default later on your account.
22. Cancellation: You may cancel your account at any time by notifying us in writing at the address on your monthly
statement and returning all cards issued on your account (cut in half). Even if your account is closed, you agree to pay
the balance on the account under the terms of this contract. We can suspend your account privileges or cancel your
account at any time, for any reason. We will notify you after we do so, unless you are in default at that time. We will
have no obligation to notify you prior to suspending your charging privileges or cancelling your account.
23. Refund of Initial Fees: If you cancel your account within 90 days after the card is first mailed to you and if you have
not used your account for any charges, all fees and interest billed to your account will be credited back to your account.
24. Collection Costs: Unless prohibited by applicable law, if we start collection proceedings to recover amounts you owe
us by reason of this contract, you agree to pay reasonable attorney’s fees and other collection costs.
25. Headings: The headings used in this contract are for the convenience of reference only and are not intended in any
way to define or describe the scope or intent of any provision of this contract.
26. State Notices:
a. California Residents: A married applicant may apply for a separate account. As required by law, you are hereby
notified that negative credit reporting may be submitted to a credit reporting agency if you fail to fulfill the terms of
your credit obligations. After credit approval, each applicant shall have the right to use the account up to the limit
of the account. Each applicant may be liable for amounts extended under the plan to any joint applicant.
b. Kentucky Residents: You may pay the unpaid balance of your account in whole or in part at any time.
c. New York Residents: Consumer reports may be requested in connection with the processing of the application
and any resulting account. Upon your request, we will inform you of the names and addresses of any consumer
reporting agencies which have provided us with such reports. New York residents may contact the New York
Department of Financial Services to obtain a comparative list of credit card rates, fees and grace periods. New
York Department of Financial Services 1-800-342-3736 or http://www.dfs.ny.gov/consumer/creditdebt.htm.
d. Ohio Residents: The Ohio laws against discrimination require that all creditors make credit equally available to
all creditworthy customers, and that credit reporting agencies maintain separate credit histories on each individual
upon request. The Ohio Civil Rights Commission administers compliance with this law.

